Nos. 19-431 and 19-454
THE LITTLE SISTERS OF THE POOR
SAINTS PETER AND PAUL HOME, PETITIONER,
v.
THE COMMONWEALTH OF PENNSYLVANIA AND THE STATE OF NEW JERSEY, ET
AL., RESPONDENTS.
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES, ET AL., PETITIONERS,
v.
THE COMMONWEALTH OF PENNSYLVANIA AND THE STATE OF NEW JERSEY, ET
AL., RESPONDENTS.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that Brief for the Cato
Institute and Jewish Coalition for Religious Liberty as Amici Curiae
Supporting Petitioners contains 4,380 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).

/s/ Ilya Shapiro
Counsel of Record

